HHS/OIG-Audit--"Review of Foster Care Claims Reclassified by the State of Alabama, (A-04-97-00111)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Foster Care Claims Reclassified by the State of Alabama," (A-04-97-00111)
October 31, 1997
Complete
Text of Report is available in PDF format (840 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine the appropriateness of the reclassifications designed to upgrade payments
for Aid to Children in Foster Care (State subsidized foster care) to Title IV-E Foster Care (federally subsidized foster
care).
In the statewide audit covering Fiscal Years (FY) 1993 and 1994, the State auditors reported that Alabama inappropriately
upgraded State foster care clients to Federal foster care status. Alabama had reclassified 1,981 State subsidized foster
care claims to federally subsidized foster care. Retroactive payments related to the reclassified claims totaled $4.4 million
for the two FYs ended September 30, 1994. The claims were upgraded by the State based on work conducted by a consulting
firm.
Based on the State auditors' report, Alabama instructed the consulting firm to recalculate the number of clients eligible
for federally funded foster care using a revised methodology. During the FY 1995 audit, the State auditors concluded that
the State had corrected the prior years' audit finding related to upgraded claims.
However, we reviewed 30 case files for clients with reclassified claims and determined that in 11 instances, the reclassifications
were not appropriate based on documentation contained in the case files. As a result of the retroactive adjustments, the
State was not reimbursed the correct amount of Federal Financial Participation.
We recommended that the State review the work performed by the consultants to ensure that expenditures for retroactive
upgrades charged to the IV-E Foster Care program were made to eligible clients. In written comments to the draft report,
the Department of Human Resources (DHR) officials disagreed with our recommendation. According to DHR officials, it would
not be a prudent use of scarce State resources to perform a 100 percent review of the retroactive upgrades.